No.

IN THE
SUPREME COURT OF THE UNITED STATES

PATRICK J. GAGE

— PETITIONER

(Your Name)
VS.
REED A. RICHARDSON

— RESPONDENT(S)

PROOF OF SERVICE
Patrick J. Gage

, do swear or declare that on this date,
, 20__ , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Solicitor General of the United States, Room 5616, Department

>

of Justice) 950 Pennsylvania Ave, N.W., Washington, DC 20530-0001 .

I declare under penalty of perjury that the foregoing is true and correct,
Executed on

RECEIVED
APR - 9 2021

202d.
4>-

SUPREEMEFrTOI IRTLm cK

(Sig^ature)

NO.

IN THE
SUPREME COURT OF THE UNITED STATES

PATRICK J. GAGE - PETITIONER
VS.
REED A. RICHARDSON - RESPONDENT

PRISON MAILBOX RULE
I Patrick J. Gage, do swear or declare that on this date,

7H^L

7

, -20, I placed my Motion For Leave To

Proceed In Forma Pauperis and my Petition For A Writ Of
Cetiorari in the prison mailbox with postage paid by a
disbustment and addressed to: Supreme Court Of The United States,
1 First Street, N.E •

t

Washington, DC 20543.

I declar under penalty of perjury the foregoing is true and correct.
Executed on

P/4crjffc

, 2021

I'/loLv I k® /
Signature

j)

